                                                    ~ SEC'u
                                                  :)U~
                                                  W~S~
                                                  ~ IIIIII1~~
                                                   .~"'ISTi-t'
                                       SOOAL          SECURITY
                                        Office of the Inspector General
MEMORANDUM

Date:      S~ptember    5 , 2001                                              ReferTo:   31249-23-209
T .Larry       G. Massanari
 0.      Acting Commissioner

            of Social   Security

From:
           Inspector General



Subject:
           Deeming of Income to Establish Initial Eligibility for Supplemental Security Income
           Recipients (A-05-99-21005)


           The attached final report presents the results of our audit. Our objective was to
           evaluate the adequacy of the Social Security Administration process for detecting
           deemable income of spouses and parents when establishing initial eligibility for
           Supplemental Security Income recipients.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. tf you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                             James G. Huse, Jr.


           Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      DEEMING OF INCOME TO
   ESTABLISH INITIAL ELIGIBILITY
    FOR SUPPLEMENTAL SECURITY
        INCOME RECIPIENTS

   September 2001    A-05-99-21005
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          Executive Summary
OBJECTIVE
The objective of the audit was to evaluate the adequacy of the Social Security
Administration (SSA) process for detecting deemable income of spouses and parents
when establishing initial eligibility for Supplemental Security Income (SSI) recipients.

BACKGROUND
The SSI program requires that the income of an applicant's ineligible parent(s) or
spouse be included when determining eligibility and payment amount for SSI benefits.
This process of considering another person’s income to be available for meeting the SSI
recipient’s basic needs of food, clothing, and shelter is called deeming of income. SSI
policy requires the claims representative (CR) to verify the alleged income of applicants
and their deemors (ineligible spouses or parents). SSI policy also allows the CR to
accept the assertions of applicants and deemors that they do not receive any other
income unless expenses exceed reported income.

The Modernized SSI Claims System (MSSICS) is an automated system for gathering,
recording and updating SSI claims information. Household composition information is
used to determine living arrangement and deeming codes. Income and resource
information for household members is used to determine the applicant's eligibility and
monthly benefit amounts.

The Foster Care Independence Act (FCIA) of 1999 provides an administrative
procedure for imposing penalties for false or misleading statements. FCIA provides a
penalty of nonpayment of SSI benefits for individuals found to have made a statement
for use in determining eligibility that the individual knew, or should have known, was
false or misleading, or omitted a material fact. The period of nonpayment is 6 months
for the first violation, 12 months for the second, and 24 months for the third violation.

RESULTS OF REVIEW
We estimated that $5 million in SSI overpayments exist for 9,240 SSI recipients who
had applied for benefits during the period July 1, 1997 through June 30, 1998 and
whose Supplemental Security Record showed a deemor income alert on
December 18, 1998. These overpayments resulted from unstated and/or understated
deemable income from spouse to spouse and parent to child when applicants first
started receiving benefits. These overpayments occurred because neither the applicant
nor the deemor reported all deemable income to SSA during the initial review of income
and SSA did not initially discover the misstatement of deemable income. SSA systems
do not provide information on current employment status that would help detect
deemable income when individuals apply for SSI benefits. SSA establishes a 14-month

Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)       i
estimate of the deemor's income based on alleged future income. If actual income is
greater than alleged income, SSI recipients can be overpaid.

Our estimate of the $5 million in SSI overpayments is based on a stratified statistical
sample of 100 records randomly selected from the population of 9,240 records. An
estimated 3,169 recipients (34 percent) in this population had overpayments. The
statistical results are discussed in Appendix A of this report.

In addition to the overpayment matter discussed above, our audit also disclosed a
potential SSA policy issue concerning the deeming of parental income for
low-birth-weight infants. Current law prohibits the deeming of parental income while an
infant is hospitalized and limits the monthly SSI benefit to $30. As a result of SSA’s
current benefit computation procedures, parents’ income usually does not affect SSI
payments until the third month after the infants are released from the medical facilities.
While these payments are in accordance with current SSA policy, this process allows
high-income parents to receive SSI payments after the infant is released to the parents’
care.

CONCLUSIONS AND RECOMMENDATIONS
SSA needs to improve its process for detecting deemable income before paying
benefits to SSI applicants. A deemor or applicant may not inform SSA that the deemor
is receiving earnings, resulting in possible overpayments not being detected until after
the applicant starts receiving benefits. To reduce these overpayments, we recommend
that SSA:

•	 Revise the "Important Information" section of the SSI application form to specifically
   mention the FCIA penalties for false or misleading statements along with the other
   existing criminal penalties and administrative and civil remedies.

•	 Require certain deemors with significant fluctuations in monthly income during the
   period for which wage verifications were obtained to submit pay stubs or other
   earnings documentation monthly to SSA for 6 months after the applicant begins
   receiving benefits.

•	 Modify the MSSICS software to interface online with the Office of Child Support
   Enforcement data base after the household composition and income information is
   entered into MSSICS to provide the CR with income and employment information
   about the applicant and any deemors in the household.

•	 Revise procedures for deeming of income to low-birth-weight infants so that a
   parent’s income is considered for eligibility testing and payment computation starting
   in the month the child is released to the parent’s household.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)     ii
AGENCY COMMENTS
SSA generally disagreed with our recommendations. SSA, however, is considering a
project planned for a modification of the MSSICS software that would address
recommendation three. The Agency questioned the effectiveness of recommendation
one regarding revising the “Important Information” section of the SSI application form to
specifically mention the FCIA penalties. SSA disagreed with recommendation two
regarding wage verification, citing as part of its objection the intensive workload involved
in the recommendation’s implementation. SSA disagreed with recommendation four
because of its concern that the recommendation would adversely impact the eligibility of
low-birth-weight infants to Medicaid health-care coverage, as well as treat these infants
inconsistently with other disabled children. The full text of SSA’s comments is included
in Appendix 6.

OIG RESPONSE
We revised recommendations two and four based on SSA’s response to the draft
report. We continue to believe that recommendation one, disclosing the FCIA penalties
on the SSI application, would help deter claimants from making false or misleading
statements on their SSI applications.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)     iii
                                                           Table of Contents

                                                                                                                 Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 3


Unstated and Understated Deemor Income ........................................................... 3


System Interfaces................................................................................................... 5


Income Deeming for Low-Birth-Weight Infants ....................................................... 6


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 7


APPENDICES


Appendix A – Sampling Estimation and Methodology


Appendix B – Agency Comments


Appendix C – OIG Contacts and Staff Acknowledgements





Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)
                                                                       Acronyms

CR                  Claims Representative

FCIA                Foster Care Independence Act

FO                  Field Office

MSSICS              Modernized Supplemental Security Income Claims System

OCSE                Office of Child Support Enforcement

PERC                Pre-Effectuation Review Contact

POMS                Program Operations Manual System

SEI                 Self-Employment Income

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSR                 Supplemental Security Record





Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)
                                                                 Introduction

OBJECTIVE
The objective of the audit was to evaluate the adequacy of the Social Security
Administration (SSA) process for detecting deemable income of spouses and parents
when establishing initial eligibility for Supplemental Security Income (SSI) recipients.

BACKGROUND
The SSI program requires that the income of an applicant’s ineligible parent(s) or
spouse be included when determining eligibility and payment amount for SSI benefits.
This process of considering another person’s income to be available for meeting the SSI
recipient's basic needs of food, clothing, and shelter is called deeming of income.1
There are four types of deeming relationships. They are parent to child, spouse to
spouse, sponsor to alien and essential person to qualified individual.

Chapter SI 01320 (Deeming of Income) of SSA’s Program Operations Manual System
(POMS) provides comprehensive guidance and procedures for the deeming of income.
POMS requires the claims representative (CR) to verify the alleged income of applicants
and their deemors (ineligible spouses or parents). POMS allows the CR to accept the
assertions of applicants and deemors that they do not receive any other income unless
expenses exceed reported income.

The Foster Care Independence Act (FCIA) of 1999 provides an administrative
procedure for imposing penalties for certain false or misleading statements. FCIA
provides a penalty of nonpayment of SSI benefits for individuals found to have made a
statement for use in determining eligibility that the individual knew, or should have
known, was false or misleading, or omitted a material fact. The period of nonpayment is
6 months for the first violation, 12 months for the second, and 24 months for the third
violation.

SCOPE AND METHODOLOGY
We limited our audit to spouse to spouse and parent to child deeming of income at the

time of application for SSI benefits. We extracted 9,240 records from the Supplemental

Security Record (SSR) that displayed an application date from July 1, 1997 to

June 30, 1998 and indicated a deeming relationship at the time of application. The

extracted records also showed a discrepancy between deemed income on the SSR and

other SSA or non-SSA data bases.



1
    20 C.F.R. §§ 416.1160 through 416.1182.



Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)      1
There were approximately 706,535 SSI awards issued during the period from

July 1, 1997 to June 30, 1998. Approximately 126,000 awards were to children. Our

extract included 5.4 percent or 6,850 of these records. The remaining 580,535 awards

were to adults. Our extract included 0.4 percent or 2,390 of these records.


We separated this population into 2 strata containing 2,390 spouse to spouse deeming

records and 6,850 parent to child deeming records. We then randomly selected a

sample of 100 deeming records. (See Appendix A for Sampling Estimation and

Methodology.)


To complete our audit, we:


•   reviewed applicable POMS sections;

•	 interviewed SSA staff at the Great Lakes Program Service Center,
   SSA Headquarters, and three field offices located in Chicago and Joliet, Illinois;

•	 reviewed case folders and system queries to determine whether deemable income
   existed at the time of application and was detected and posted prior to placing the
   applicant into payment status; and

•	 requested additional documentation from FOs and third parties (e.g., employers) as
   necessary to complete our analysis.

We performed audit work in Chicago, Illinois; Joliet, Illinois; and Baltimore, Maryland.
Our field work was conducted from February 1999 to June 2000. The entity audited
was the Office of Program Benefits within the Office of the Deputy Commissioner for
Disability and Income Security Programs. We conducted our audit in accordance with
generally accepted government auditing standards. We did not rely solely on
computer-processed data from the SSR to perform our analysis and determine the
amount of overpayments. Instead, we examined original documentation from case
folders and obtained third-party verification of income. We placed general reliance on
the application control review of the SSI Record Maintenance System, which was
conducted from July 1, 1999 to February 28, 2000. This review was conducted in
compliance with the Federal Managers’ Financial Integrity Act.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   2
                                                 Results of Review

We estimated that $5 million in SSI overpayments exist for the 9,240 SSI recipients in

our statistical population. These overpayments resulted from unstated and/or

understated deemable income from spouse to spouse and parent to child when

applicants first started receiving benefits. These overpayments occurred because

neither the applicant nor the deemor reported all deemable income to SSA during the

initial review of income and SSA did not initially discover the misstatement of deemable

income. SSA systems do not provide information on current employment status that

would help detect deemable income when individuals apply for SSI benefits. SSA

establishes a 14-month estimate of the deemor's income based on alleged future

income. If actual income is greater than alleged income, SSI recipients can be

overpaid.


Our estimate of overpayments is based on a stratified statistical sample of 100 records

randomly selected from a population of 9,240 records. These were records of SSI

recipients who had applied for benefits during the period July 1, 1997 through

June 30, 1998 and whose SSR showed a deemor income alert on December 18, 1998.

An estimated 3,169 recipients (34 percent) in this population had overpayments. The

statistical results are discussed in Appendix A of this report.


In addition to the overpayment matter discussed above, our audit also disclosed a

potential SSA policy issue concerning the deeming of parental income for

low-birth-weight infants. Current law prohibits the deeming of parental income while an

infant is hospitalized and limits the monthly SSI benefit to $30.2 As a result of SSA’s

current benefit computation procedures, parents’ income usually does not affect SSI

payments until the third month after the infants are released from the medical facilities.

While these payments are in accordance with the current SSA policy, this process

allows high-income parents to receive SSI payments after the infant is released to the

parents’ care.


UNSTATED AND UNDERSTATED DEEMOR INCOME
Our review of 100 sample cases disclosed that 43 cases had either unstated or
understated deemed income when the applicant first started receiving benefits. Of
these 43 cases, there were 33 cases involving overpayments resulting from deemor
wages that were either unreported and/or underreported at the time of application.
There were no overpayments related to the remaining 10 cases.




2
 Section 1611(e)(1)(B) of the Social Security Act, 42 U.S.C. § 1382 and 1614(f) of the Social Security
Act, 42 U.S.C. § 1382(c).


Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)                    3
The "Application for Supplemental Security Income" requires the applicant and
deemor(s) to list all income earned at the time of filing and estimate any income they
expect to earn in the next 14 months. Also, the applicant must report to SSA any
changes in income within 10 days after the month it happens. We found cases where
deemors reported that they did not expect any earnings in future months even though
they had earnings in the period prior to the income review. In other cases, deemors
understated their wages for eligibility factors for the month of review and/or future
months. Understated deemor wages result from estimating future wages based on past
wages and allegations of lower than actual future wages by applicants or deemors.

The deemor may fail to inform the CR of expected increases in future wages at the time
of the Pre-Effectuation Review Contact (PERC) or other review of nonmedical eligibility
factors. These expectations could be based on the deemor's knowledge of upcoming
raises, cost of living adjustments, longevity increases, bonuses, overtime, and changes
in pay scale or number of hours worked.

Example of Unstated Deemor Income

We reviewed a spouse to spouse deeming case where the ineligible spouse claimed
that he expected to make $2,750 of self-employment income (SEI) for the entire year in
which his spouse applied for SSI. He claimed that he did not expect to earn any other
income in the next 14 months. The CR accepted this allegation because the couple
was living rent-free with a relative who also gave them money, and they were allegedly
delinquent in making their utility payments.

The ineligible spouse did not inform the CR that he was employed at the time of the
PERC. The CR processed the claim in accordance with the POMS, relying on the
applicant and deemor's allegations that they did not and would not have any other
income. POMS required the CR to allocate the SEI over 12 months rather than over the
period during which it was earned.3 The monthly allocation of the deemor's alleged SEI
and his relative's monetary gift were not sufficient to result in deeming of income.
Accordingly, the CR put the applicant into payment status and did not set up an
estimate of deemor wages for the next 14 months.

SSA generally relies on matching computerized data from other Federal and State
agencies to verify that the information is correct. When these computer matches
identify discrepancies between data reported by recipients and the data recorded by
these agencies, alert notices are sent to FOs. These alerts require that the FOs
determine if the discrepancies impact SSI benefits.

A wage alert was issued against the deemor husband over 10 months later. The alert
was resolved 8 months after issuance when the FO posted verified wages for the month
of the PERC and the next 16 months. During the 17 months following the PERC, the
husband's actual monthly wage varied from $680 to $5,903. The average monthly
wage for this period was $3,380. These wages resulted in a series of overpayments
3
    POMS Section SI 00820.210.B.1.


Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   4
totaling $5,916. SSA stopped paying benefits to this recipient. Although SSA has tried
to collect the overpayment, its efforts have been unsuccessful.

Example of Understated Deemor Income

We reviewed a parent to child deeming case where the ineligible mother claimed that
she expected to earn $640 (4-week month) to $800 (5-week month) monthly from her
part-time employment. She did not tell the CR that her hours worked had nearly
doubled in the month of the PERC and were expected to continue at that level.

The CR had verified that the mother's actual wages from the month of effective filing
through the month prior to the month of recontact were only slightly higher than the
alleged monthly wage, so the CR posted $700 and $800 wage estimates for the next
14 months based on the number of work weeks in each month.

SSA issued an alert involving the deemor mother 8 months later. SSA resolved the
alert 8 months after issuance when the FO posted verified wages for the month of the
PERC and the next 12 months. The deemor mother's monthly wages for this period
ranged from $1,150 to $2,626. These wages resulted in a series of overpayments
totaling $3,859. SSA is in the process of recovering the overpayment through
installments deducted from the recipient's monthly SSI payment.

SYSTEM INTERFACES
The Modernized SSI Claims System (MSSICS) is an automated system for gathering,
recording and updating SSI claims information. Household composition information is
used to determine living arrangement and deeming codes. Income and resource
information for household members is used to determine the applicant's eligibility and
monthly benefit amounts.

Office of Child Support Enforcement

The Office of Child Support Enforcement (OCSE) maintains earned income data that is
updated on a quarterly basis.4 This data is more current than wage data on the SSA
Master Earnings File, which has an approximate delay of 8 months in posting wage
information. SSA has been performing quarterly matches between the SSR and the
OCSE data base since September 1998. Beginning in January 2001, SSA FOs were
given online query access to the OCSE data base.

SSA could modify the MSSICS software to interface online with the OCSE data base
after the income and household composition input screens have been completed. The
objective is to provide the CR with the most recent earnings reported for each deemor in
the applicant’s household and any new hire information.


4
    Section 303(h)(1) of the Social Security Act, 42. U.S.C. § 503.


Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   5
INCOME DEEMING FOR LOW-BIRTH-WEIGHT INFANTS
Nine of the 60 parent to child deeming cases we reviewed were infants who SSA
determined to be disabled under the provisions for low-birth-weight infants. We noted
that the income of parents is not deemed to these infants until the month after their
discharge from medical facilities. If the nonmedical eligibility tests determine that the
infant is eligible for any amount of SSI benefits (even less than one dollar), then SSA
procedures require calculation of SSI payments based on countable income from
2 months prior to the computation month. Since no income is deemed during
hospitalization or in the month of release from the hospital, the family will receive the
maximum SSI payment for 2 months after the month of medical discharge regardless of
the amount of the parental income.

This process was illustrated by one of the families included in our sample reviews.
Parents of quadruplets received SSI payments totaling $4,072 for the infants based on
their low-birth-weights. At the time SSA deemed the parents’ income to the infants, they
became ineligible for payments. The reason was the parents’ annual earned income
exceeded $100,000. Nonetheless, under current procedures, each of the four children
received $1,018 because each was entitled to payments of $30 for the month of
hospitalization plus $494 for the month of discharge from the hospital and another
$494 for the following month.

The above illustration shows the impact of the current procedures used to deem income
from parents to disabled children. Implementation of our recommendation to apply the
deemed income effective with the month of discharge from the hospital would have
limited this family to SSI payments totaling $120 (or $30 for each infant during the
month of hospitalization).




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   6
                                               Conclusions and
                                              Recommendations
SSA needs to improve its process for detecting deemable income before paying
benefits to SSI applicants. A deemor or applicant may not inform SSA that the deemor
is receiving earnings, resulting in possible overpayments not being detected until after
the applicant starts receiving benefits. To reduce these overpayments, we recommend
that SSA:

1. 	 Revise the "Important Information" section of the SSI application form to specifically
     mention the FCIA penalties for false or misleading statements along with the existing
     criminal penalties and other administrative and civil remedies.

2. 	 Require certain deemors with significant fluctuations in monthly income during the
     period for which wage verifications were obtained to submit pay stubs or other
     earnings documentation monthly to SSA for 6 months after the applicant begins
     receiving benefits.

3. 	 Modify the MSSICS software to interface online with the OCSE data base after the
     household composition and income information is entered into MSSICS to provide
     the CR with income and employment information about the applicant and any
     deemors in the household.

4. 	 Revise procedures for deeming of income to low-birth-weight infants so that a
     parent’s income is considered for eligibility testing and payment computation starting
     in the month the child is released to the parent’s household.

AGENCY COMMENTS
SSA generally disagreed with our recommendations. The Agency stated that adding
the FCIA sanctions to the SSI applications would not be an enhancement because
recipients usually are not sanctioned for false or misleading statements made by
deemors. Regarding the second recommendation, SSA stated that processing monthly
pay stubs for all deemor (as recommended in our draft report) would be very
labor-intensive. SSA responded to the third recommendation by stating that a MSSICS
modification is an unscheduled item in the SSI 5-year plan. Finally, with regards to the
last recommendation, SSA cited the need to protect Medicaid eligibility for
low-birth-weight infants. The Agency also noted that the recommendation made in our
draft report would treat these infants differently under SSI than other hospitalized
disabled children who receive SSI payments. The full text of SSA’s comments is
included in Appendix B.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)     7
OIG RESPONSE
We believe that including the FCIA sanctions on the SSI application would help deter
applicants from deliberately understating their deemable income at the time they apply
for SSI payments. We revised our second recommendation to reduce the burden of
obtaining wage records by deleting the requirements to obtain records from employers
and from all applicants. We believe that SSA should reconsider the revised
recommendation to obtain wage records from individuals with significantly fluctuating
monthly income. We also revised the fourth recommendation to acknowledge the
current law that provides a minimal institutional allowance ($30 monthly) under SSI for
hospitalized children and not consider parents’ income deemable to the children. This
provision provides such children with Medicaid health-care coverage during their
hospitalization. The revised recommendation would require that deemable parent
income be considered in the month disabled children receiving SSI payments are
released from medical facilities to their parents’ care.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   8
                                         Appendices





Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)
                                                                               Appendix A

Sampling Estimation and Methodology
We obtained a data extract from the Supplemental Security Record (SSR) of all records
where the recipient applied for Supplemental Security Income (SSI) benefits between
July 1, 1997 and June 30, 1998. The records indicated a spouse to spouse or parent to
child deeming relationship existed at the time of application for SSI assistance. The
records also showed a deemor income alert on December 18, 1998.

An income alert is only displayed on the SSR until it is resolved. Consequently, our
sample universe does not contain all records where an overpayment could have
occurred because the deemable income of a spouse or parent(s) went undetected when
establishing initial eligibility for SSI applicants during this 1-year period.

We separated the 9,240 records from our extract into 2 strata. The first stratum
consisted of spouse to spouse deeming records. The second stratum consisted of
parent to child deeming records. We initially selected random samples of 100 and
300 records from the 2 respective strata, roughly proportional to the strata sizes of
2,239 and 6,850 records. We found 40 auditable records from 65 sampled records in
the first stratum. We were unable to audit the remaining 25 sample cases because
either the case folders were not received or there was insufficient documentation for us
to reach a conclusion. We then reviewed 96 sample items from stratum 2 to identify
60 auditable records.

At that point, we stopped sampling because we had achieved a minimum acceptable
sample size of 100 records and identified a sufficient number of discrepancies to make
a reasonably reliable projection of estimated overpayments related to the errors. The
decision was based on the need to conserve audit resources and recognition that the
projected results were sufficiently reliable as an estimation of overpayments related to
these errors.

We determined whether the deemable income was detected and posted to the SSR
before the applicant started receiving benefits. An error existed if any deemable income
was unstated or understated when the applicant was placed into payment status. If the
unstated or understated deemable income would have reduced the payment amount,
we computed the overpayment that resulted from the additional deemable income. The
results of our sample are presented in the following table.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)   A-1
                                  Table 1 - Sample Results

            Strata                   Strata     Sample                    Overpayments
         Description                  Size       Size       Errors     Number    Amount
 Spouse to Spouse Deeming            2,390        40         15          11      $11,947
 Parent to Child Deeming             6,850        60         28          22      $37,597
            Total                    9,240       100         43          33      $49,544


The following table presents the statistical projections of our sample results to the
sample universe of 9,240 records. This is a conservative estimate to the extent that the
expected errors from records we were unable to review due to missing documentation
may be at least as or more significant than the errors we identified from records that
were adequately documented. The point estimates, lower limits, and upper limits are
presented at the 90-percent confidence level.


                Table 2 - Projections of Sample Results to the Universe

                                                              Number of            Amount of
         Description                Number of Errors         Overpayments         Overpayments
Point Estimate - Stratum 1                896                      657              $713,844
Point Estimate - Stratum 2              3,197                    2,512             $4,292,357
Point Estimate - Universe               4,093                    3,169             $5,006,201
Lower Limit - Universe                  3,304                    2,412             $3,050,056
Upper Limit - Universe                  4,882                    3,926             $6,962,347




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)       A-2
                   Appendix B


Agency Comments

MEMORANDUM


           -
           J   ...~c   11f.;   ,-,,61                                                       Refer To: SJl-3


To:        JamesG. Ruse, Jr.
           Inspector General                                  /
                                                /
           Larry G. Massanari               (
           Acting
                                          //
Subject:   O~~e.~fthe               Inspe~9f General (O!G) Draft Repo.rt,."Deeming of Income to Establish Initial
           ElIgIbIlIty         for Supplemental Secunty Income RecIpIents"      (A-O5-09-21005)-INFORMATION


           Our comments to the subject report are attached. Staff questionsmay be directed to
           OdessaJ.Woods at extension 50378.

           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "DEEMING OF
INCOME TO ESTABLISH INITIAL ELIGIBILITY FOR SUPPLEMENTAL SECURITY
INCOME RECIPIENTS” (A-05-99-21005)


Thank you for the opportunity to review the subject draft report. We offer the following
comments.

Recommendation 1

Revise the "Important Information" section of the Supplemental Security Income (SSI)
application form to specifically mention the new FCIA [Foster Care Independence Act] penalties
for false or misleading statements with the existing criminal penalties and other administrative
and civil remedies.

SSA Comment

We disagree. The administrative sanctions, which consist of nonpayment of title II and SSI
benefits, apply only when a person would otherwise be entitled to title II or eligible for SSI
benefits. We do not sanction representative payees or deemors. Additionally, we do not
sanction the recipient when someone else (e.g., a representative payee or a deemor) makes a false
or misleading statement—unless the recipient caused the other person to make that statement
(SI 02604.405). Therefore, we do not believe that specifically mentioning the new FCIA
sanctions on the SSI application would enhance the effect of the existing language on penalties.

Recommendation 2

Require deemors or their employers to submit pay stubs or other earnings documentation
monthly to SSA for 6 months after the applicant begins receiving benefits (in accordance with
POMS Section SI 00820.141).

SSA Comment

We disagree. POMS Section SI 00820.141 discusses an alternative wage verification method
that some field offices have put in place with local employers, usually sheltered workshops, to
report earnings for SSI recipients on a periodic basis. However, SSA has no authority to require
employers to report wages monthly, and it is not feasible to require all employers to do so. Many
large national companies have now contracted out their payroll operations and no longer provide
any wage verification. Also, periodic reporting of wages is a very labor-intensive workload.
Although some field offices have local arrangements in place, other offices have staffing or
workload concerns that prevent them from being able to process pay stubs for all deemors on a
monthly basis (even for just the first 6-month period).




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)      B-2
Recommendation 3

Modify the MSSICS software to interface online with the OCSE database after the household
composition and income is entered into MSSICS to provide the CR with income and
employment information about the applicant and any deemors in the household.

SSA Comment

A project to place the OCSE query in the MSSICS path, is included as an unscheduled item in
the Agency’s SSI 5-year plan. Once we have defined the scope of the project and the user’s
needs, which are currently being drafted, we will be able to compare the activity with others
competing with it for resources and better able to determine a possible implementation schedule.

Recommendation 4

Revise procedures for deeming of income to presumptively disabled low-birth-weight infants so
that a parent’s income is considered for eligibility in the month of application for SSI benefits.

SSA Comment

We disagree. We believe that the recommendation would require a legislative change rather than
a procedural change as suggested in the draft report.

Section 1614(f) of the Social Security Act provides for deeming of income and resources when a
child is living in the same household as his or her parents. Under current rules, hospitalized
children are not considered to be living with their parents. Prior to 1996, hospitalized disabled
children generally could be eligible for the full SSI benefit standard if Medicaid were not paying
for at least 50 percent of the child’s care. Concerned that some children were receiving full SSI
benefits while their parents were able to afford their hospitalization, Congress considered a
number of options including the extension of deeming to hospitalized children. In 1996,
Congress enacted a provision addressing the issue. The provision reduces the SSI benefit to
$30 for hospitalized children whether Medicaid or private insurance is paying for the child’s
care. The draft report should be clarified to fully explain on what basis the children were paid.

Our primary concern regarding deeming a parent’s income and resources to a hospitalized child
is the potential effect that deeming would have on the child’s Medicaid eligibility. In many
States, SSI eligibility provides Medicaid eligibility. Without the guarantee of health-care
coverage, low-birth-weight children might not receive the intensive, early care they need and
may continue to have impairments for life. Further, implementation of this recommendation
would result in policy that would treat low-birth-weight children less favorably than other
hospitalized disabled children.

Also, the report does not provide any clear indication that the overpayment amounts derive from
the $30 payments made to low birth weight infants while they remain hospitalized. Rather, the
report suggests that the more significant problem stems from payment adjustments that are
effective after the child is released from the hospital.



Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)      B-3
                                                                               Appendix C

OIG Contacts and Staff Acknowledgements
OIG Contacts

   William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

   Barry Shulman, Deputy Director, (312) 353-0331

Acknowledgements

In addition to those named above:

   Robert Lenz, Senior Auditor

   Elizabeth Juarez, Auditor

   Sherman Doss, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-05-99-21005.




Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
              Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
